   October 19, 2006




Information Technology
Management
Hurricane Katrina Disaster Recovery
Efforts Related to Army Information
Technology Resources
(D-2007-006)




            Department of Defense
           Office of Inspector General
Quality               Integrity      Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
COOP                  Continuity of Operations
CTASC                 Corps Theater Automatic Data Processing Service Center
GAO                   Government Accountability Office
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY N A V Y DRIVE
                         ARLINGTON. VIRGINIA 22202-4704



                                                                        October 19, 2006
MEMORANDUM FOR ASSISTAN?' SECRETARY OF DEFENSE FOR NETWOKKS
                 AND INFORMATION JNTEGRATIONICHIEF
                 INFORMATION OFFICER
               AUDITOR GENERAL,DEPARTMENT OF THE ARMY
SUBJECT: Report on Hurricane Katrina Disaster Recovery Effofls Rclatcd to Ammy
         Information Technology Resources (Report No. D-2007-006)


      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DnD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
        We appreciate the courtesies extended to the staff. Questions should be dircctcd
to Ms. Jacqueline Wicecarver at (703) 604-9077 (DSN 664-9077) or Ms. Thcresr M.
Kince at (703) 604-9060 (DSN 664-9060). The team members are listed inside the back
cover.
                               By direction of thc Deputy Inspector General for Auditing:



                                         &&            @-
                                          Bruce A. Burton
                                  Deputy Assistant Inspector General
                                 Acquisition and Contract Management
                Department of Defense Office of Inspector General
Report No. D2007-006                                                       October 19, 2006
 (Project No. D2006-D000AS-0135.000)

           Hurricane Katrina Disaster Recovery Efforts Related to
                 Army Information Technology Resources

                                  Executive Summary

Who Should Read This Report and Why? Managers of DoD information systems
should read this report because it emphasizes the importance of continuity of operations
planning for critical systems that may be disrupted during disasters.

Background. On August 29, 2005, Hurricane Katrina devastated the Gulf Coast states
of Louisiana, Mississippi, Alabama, and Florida with Category 3 winds and torrential
rain. This audit report is the first in a planned series of audits on the effects of Hurricane
Katrina on DoD information technology resources. Two Army logistics information
technology systems operated by the 321st Theater Materiel Management Center Rear,
located in Baton Rouge, Louisiana, experienced communications disruptions as a result
of Hurricane Katrina.

The Army information technology resources affected by Hurricane Katrina in Baton
Rouge were categorized as Mission Assurance Category II systems. DoD Instruction
8500.2, “Information Assurance Implementation,” February 6, 2003, requires Mission
Assurance Category II systems to have a disaster plan that enables mission- or business-
essential functions to resume within 24 hours. DoD Directive 3020.26, “Defense
Continuity Plan,” September 8, 2004, requires DoD Components to develop, coordinate,
and maintain continuity plans; to update and reissue plans every 2 years; and to test and
exercise continuity plans at least annually, or otherwise as directed.

Results. The 321st Theater Materiel Management Center Rear lost voice and data
communications as a result of Hurricane Katrina. The materiel managers of the
321st Theater Materiel Management Center Rear were unable to communicate with
customers located in Southwest Asia, nor could they resume operations for one critical
logistics information technology system within 24 hours. As a result, a backlog in
processing requisitions caused a 4-day delay in requisitioning supplies from warehouses;
the materiel managers of the 321st Theater Materiel Management Center Rear could not
quantify the impact on the warfighter or theater readiness. After Hurricane Katrina, the
321st Theater Materiel Management Center Rear took the appropriate steps to correct
disaster recovery planning weaknesses. According to officials at the Army Materiel
Command and the 377th Theater Support Command, the two logistics information
technology systems will transfer from the 321st Theater Materiel Management Center
Rear to the Army Materiel Command Logistics Support Activity, Redstone Arsenal,
Alabama, and Belle Chasse, Louisiana, respectively. (See the Finding section of the
report for the detailed recommendations.) The 321st Theater Materiel Management
Center Rear internal controls were not adequate. We identified an internal control
weakness in the protection of information technology resources.
Management Comments. The U. S. Army Materiel Command Director, Internal
Review and Audit Compliance Office, responding for the Command, stated that
Headquarters had reviewed the draft report and agreed with the reported facts,
conclusions, and concurred with the recommendations. U.S. Army Materiel Command
agreed to develop a disaster recovery plan for the Corps Theater Automation Service
Support Center in accordance with DoD Instruction 8500.2 and DoD Directive 3020.26
by January 1, 2007, and stated the plan will be exercised at least annually and updated
semiannually.

The Commanding General of the U.S. Army 377th Theater Support Command concurred
with comments. The Commanding General stated that the Command recognized and
corrected the deficiencies prior to the audit. After Hurricane Katrina, the Command
developed and tested a disaster recovery plan. They added redundant data
communications and trained staff on this process. Additionally, the Commanding
General stated the Standard Army Ammunition System-Modernized was transferred to
Belle Chasse on July 12, 2006, and the Command was in the process of modifying the
disaster recovery plan to include the system at that location. The plan will include
disaster recovery measures that comply with Federal and DoD policy at the final
locations of both the primary and back-up systems for the Standard Army Ammunition
System-Modernized. Finally, the Commanding General stated that the new plan will be
completed by November 30, 2006. See the Finding section of the report for a discussion
of management comments and the Management Comments section of the report for the
complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objective                                                                    2

Review of Internal Controls                                                  3

Finding
     Effects of Hurricane Katrina on Army Information Technology Resources    4

Appendixes
     A. Scope and Methodology                                                 9
         Prior Coverage                                                       9
     B. Report Distribution                                                  10

Management Comments
     U.S. Army Materiel Command                                              13
     U.S. Army 377th Theater Support Command                                 15
Background
           On August 29, 2005, Hurricane Katrina devastated the Gulf Coast states of
           Louisiana, Mississippi, Alabama, and Florida with Category 3 winds and
           torrential rain. This audit report is the first in a planned series of audits on the
           effects of Hurricane Katrina on DoD information technology resources.

           Mission. The 321st Theater Materiel Management Center is a U.S. Army
           Reserve unit under the 377th Theater Support Command. The 321st Theater
           Materiel Management Center Rear,1 located in Baton Rouge, Louisiana, is
           responsible for:

                   •    integrating joint systems analysis and supply and maintenance
                        management in the Central Command Area of Responsibility;

                   •    directing and synchronizing materiel management organizations and
                        supporting the Materiel Management Center’s Standard Army
                        Management Information System;

                   •    supervising Rear Elements and coordinating and tasking authority over
                        Forward2 Deployed Elements; and

                   •    managing the supply system to identify the status and location of
                        materiel into, through, and out of Central Command Area of
                        Responsibility.

           The 321st Theater Materiel Management Center Rear is an operator of the Corps
           Theater Automatic Data Processing Service Center (CTASC) and the Standard
           Army Ammunition System-Modernized, both Mission Assurance Category II
           systems, which are used to manage supply operations in Southwest Asia.

           The Systems. The CTASC system is decentralized throughout the world at
           nine locations. In Baton Rouge, the CTASC manages supply transactions for
           several warehouses in Southwest Asia, and the Department of the Army
           designated it as the most critical system in the world because it manages all
           requisitions within Southwest Asia, including Iraq, Afghanistan, and the Horn of
           Africa. The CTASC provides direct support to the warfighter by processing
           materiel requisitions from 52 warehouses. The 321st Theater Materiel
           Management Center Rear also operates the Standard Army Ammunition System-
           Modernized to manage the ammunition supply for and within Southwest Asia.
           The Standard Army Ammunition System-Modernized is a portable system based
           on commercial software with flexible communications capabilities.



1
    The 321st Theater Material Management Center Rear, in Baton Rouge, Louisiana, provides direct support
    to Iraq, Kuwait, Afghanistan, and the Horn of Africa.
2
    The 321st Theater Materiel Management Center Forward, in Camp Arifjan, Kuwait, coordinates with the
    Rear in managing the distribution and accountability of ammunitions in the Central Command Area of
    Responsibility.



                                                     1
    Criteria
    All DoD organizations are required to comply with the following laws and
    regulations when they implement their disaster recovery controls and plans.

    Information Assurance. DoD Directive 8500.1, “Information Assurance,”
    October 24, 2002, certified current as of November 21, 2003, states that Mission
    Assurance Category II systems handle information that is important to support
    deployed and contingency forces. The loss of a Mission Assurance Category II
    system is difficult to deal with and can be tolerated only for a short time. The
    consequences of a delay in providing important information or of a degradation of
    services may seriously affect the mission and operational readiness. Finally, DoD
    Directive 8500.1 states that Mission Assurance Category II systems require other
    safeguards in addition to best business practices to provide adequate assurance.

    DoD Instruction 8500.2, “Information Assurance Implementation,” February 6,
    2003, establishes a baseline for information assurance with a list of threshold
    controls to maintain the availability of Mission Assurance Category II systems.
    These controls should include a disaster plan that will resume mission- or
    business-essential functions within 24 hours of activation. The plan should
    include business recovery plans, system contingency plans, facility disaster
    recovery plans, and plan acceptance. The controls should also include a
    continuity of operations plan or a disaster recovery plan that is tested and
    exercised annually.

    Disaster and Recovery Planning. DoD Directive 3020.26, “Defense Continuity
    Plan,” September 8, 2004, requires a comprehensive and effective program that
    continues DoD Components’ mission-essential functions under all circumstances
    and threats. Performing mission-essential functions during a threat or event must
    be the basis for continuity planning, preparation, and execution. DoD Directive
    3020.26 requires the heads of DoD Components to develop, coordinate, and
    maintain continuity plans and to update and reissue plans every 2 years. Finally,
    the heads of DoD Components should test and exercise continuity plans at least
    annually, or otherwise as directed.


Objective
    The overall audit objective was to determine whether adequate internal controls
    and plans for disaster recovery were in place to safeguard Army information
    technology resources. Specifically, we reviewed the Army information
    technology resources managed by the 321st Theater Materiel Management Center
    Rear, which were affected by Hurricane Katrina.




                                        2
Review of Internal Controls
     We identified internal control weaknesses for the 321st Theater Materiel
     Management Center Rear as defined by DoD Instruction 5010.40, “Managers’
     Internal Control (MIC) Program Procedures,” January 4, 2006. The 321st Theater
     Materiel Management Center Rear in Baton Rogue, Louisiana, did not have
     procedures in place to adequately protect and safeguard information technology
     resources. Implementing Recommendations 1. and 2. will improve the U.S. Army
     Logistics Support Activity (acquiring the CTASC mission from the 321st Theater
     Materiel Management Center Rear) and 377th Theater Support Command
     planned disaster recovery measures for continuity of operations that comply with
     Federal and DoD policy. A copy of the final report will be provided to the senior
     official responsible for internal controls in the 377th Theater Support Command.




                                         3
           Effects of Hurricane Katrina on Army
           Information Technology Resources
           The 321st Theater Materiel Management Center Rear lacked internal
           controls and a disaster recovery plan to adequately protect and safeguard
           information technology resources. Hurricane Katrina damaged critical
           communications circuits that were used by supply managers at the 321st
           Theater Materiel Management Center Rear to communicate with
           customers located in Southwest Asia, and operations were not resumed for
           one critical logistics information technology system within the required
           24 hours. These conditions occurred because the 321st Theater Materiel
           Management Center Rear did not have a formal disaster recovery plan to
           continue operations. As a result, a backlog in processing requisitions
           caused a 4-day delay in requisitioning supplies from warehouses; the
           supply managers at the 321st Theater Materiel Management Center Rear
           could not determine the impact on the warfighter or on theater readiness.


Communications Outages
    The 321st Theater Materiel Management Center Rear lost Defense Switched
    Network and commercial voice and data communications because of damage to
    telecommunications lines caused by Hurricane Katrina. As a result, the 321st
    Theater Materiel Management Center Rear was not able to communicate with the
    users of the CTASC system and the Standard Army Ammunition System-
    Modernized in Southwest Asia.

    The 321st Theater Materiel Management Center Rear did not have a formal
    disaster recovery plan in place prior to Hurricane Katrina; however, it worked
    with a multiorganization crisis action team to bring operations back online using
    solutions developed as the situation unfolded. The 321st Theater Materiel
    Management Center Rear and the crisis action team were able to reestablish
    communications with the CTASC system customers in Southwest Asia within
    56 hours of the initial outage by using satellite communications.

    In an effort to maintain communication with the Standard Army Ammunition
    System-Modernized, the Army officer in charge, responsible for the Standard
    Army Ammunition System-Modernized, asked all reporting ammunition supply
    points to communicate by e-mail. The Standard Army Ammunition System-
    Modernized operations were restored within 24 hours of the initial outage by
    using an e-mail workaround that allowed direct movement of all munitions within
    the Central Command Area of Responsibility to continue.


Disaster Recovery Planning
    The 321st Theater Materiel Management Center Rear command staff stated that
    they discussed several disaster recovery options before Hurricane Katrina, such as


                                         4
    obtaining dual-homed (T1) communication lines and using satellite
    communications during an outage. However, these options were not formally
    documented because the 321st Theater Materiel Management Center Rear
    command staff believed that they did not have the resources to develop a
    complete disaster recovery plan. The 321st Theater Materiel Management Center
    Rear had a generic continuity of operations (COOP) plan for the CTASC system
    only; this plan was limited in scope, was not site-specific, and was not tested
    annually. Although the 321st Theater Materiel Management Center Rear took
    preliminary steps to prepare for potential disasters prior to Hurricane Katrina, it
    lacked a complete disaster recovery plan for all its critical systems.

    The 321st Theater Materiel Management Center Rear did not have a
    comprehensive and effective disaster recovery program before Hurricane Katrina
    as required by DoD Directive 3020.26 because it did not have a plan that would
    make all mission-essential functions available under all circumstances and threats.
    Additionally, due to the lack of a disaster recovery plan, the 321st Theater
    Materiel Management Center Rear was not able to resume all mission-essential
    functions for CTASC operations within 24 hours or exercise the generic COOP
    plan annually as required for Mission Assurance Category II systems by DoD
    Instruction 8500.2.


Impact to Theater
    The communications outages caused a backlog of batch file traffic, resulting in a
    4-day backlog of parts requisitions from supply support organizations. The batch
    file traffic backlog was slowly reduced once satellite communications were
    established 56 hours after Hurricane Katrina struck. Communications using
    T-1 telecommunications lines were reestablished within 13 days and the backlog
    was dramatically reduced. An after-action report and statements made by 321st
    Theater Materiel Management Center Rear personnel indicate that although the
    total impact to theater readiness is unknown, no major supply problems were
    evident during the outage.


Management Actions
    Both the 321st Theater Materiel Management Center Rear and the 377th Theater
    Support Command issued after-action reports following Hurricane Katrina that
    documented the communications outages, the actions taken to restore
    communications, lessons learned from the event, and recommendations to prepare
    for future disasters. The 321st Theater Materiel Management Center Rear took
    the following steps to correct the identified weaknesses in disaster preparedness:

           •   developed a formal, approved disaster recovery plan that meets the
               requirements established in DoD Directive 3020.26 and DoD
               Instruction 8500.2;




                                         5
                      •    tested the disaster recovery plan as required by DoD Directive 3020.26
                           and DoD Instruction 8500.2;

                      •    added redundant data communications lines that were routed away
                           from the Gulf Coast and added back-up satellite communications
                           capabilities; and

                      •    implemented training and certification programs to prepare users to
                           operate on generator power or satellite communications, or both.


Mission Transfer
                 According to Army Materiel Command officials, the mission for the CTASC
                 system in Baton Rouge was transferred to the Army Materiel Command
                 Logistics Support Activity, Redstone Arsenal, Alabama, in June 2006. Army
                 Materiel Command officials stated that this move is the result of an Army-
                 wide effort, initiated prior to Hurricane Katrina, that was designed to
                 consolidate all nine CTASC systems at one site to reduce the number of
                 systems, prepare for implementing future logistics information systems, and
                 support the Army’s transformation to a modular force structure.3

                 The concept plans for CTASC system consolidation, April 25, 2006, state that
                 a COOP site will be located at the Defense Information Systems Agency
                 facility in Oklahoma City, Oklahoma. Army Materiel Command officials
                 stated that the COOP site will serve as a full-time back-up site to the CTASC
                 system operations at the Logistics Support Activity. The COOP site was not
                 yet operational as of September 2006 because the Army Materiel Command
                 and the Defense Information Systems Agency are negotiating the fee-for-
                 service contract. According to Army Materiel Command officials, only the
                 CTASC system located at the 321st Theater Materiel Management Center
                 Rear will join the three systems already located at Army Materiel Command
                 Logistics Support Activity. The other six systems will remain at their existing
                 locations until the COOP site is activated because AMC officials determined
                 there are not enough spare CTASC systems available to satisfy the program’s
                 self-imposed one-for-one backup rule.

                 In addition to the CTASC system’s relocation, officials at the 377th Theater
                 Support Command stated during audit field work that the Standard Army
                 Ammunition System-Modernized mission was tentatively scheduled to
                 transfer to the 377th Theater Support Command in Kuwait around June 2006.
                 Statements made by the Commanding General of the 377th Theater Support
                 Command in an August 2006 response to the draft report indicated that the
                 Standard Army Ammunition System-Modernized was transferred to Belle
                 Chasse in July, but there was no official order for the transfer: it was part of
                 an inactivation process and that the mission remained with the 377th Theater
                 Support Command. The Commanding General stated that a plan to transfer

3
    The Army is restructuring from a division-based to a brigade-based force, which will result in Brigade Combat
    Teams that are designed as self-sufficient and standardized.



                                                             6
the Standard Army Ammunition System-Modernized to another location is
being analyzed. Further, the Commanding General stated that although the
initial plan was to transfer the Standard Army Ammunition System-
Modernized operations to Kuwait, the final decision was to move it to Belle
Chasse, Louisiana. Regardless of the actual location of the primary and
back-up system, once the move is made, the Command will need to establish
disaster recovery measures.




                                7
Recommendations and Management Comments
    1. We recommend that the Commander, U.S. Army Materiel Command
    execute the planned disaster recovery measures after consolidating Army
    Corps Theater Automatic Data Processing Service Center systems at the
    Logistics Support Activity, Redstone Arsenal, Alabama.

    Management Comments. The Commander, U.S. Army Materiel Command
    concurred with the recommendation, stating that the U.S. Army Logistics Support
    Activity will develop a Corps Theater Automation Service Support Center
    disaster recovery plan that complies with DoD Instruction 8500.2 and DoD
    Directive 3020.26 by January 1, 2007. Additionally, the Commander stated that
    current continuity of operations planning employs a combination of CTASC
    hardware at the Software Engineering Center, Fort Belvoir, Virginia, and Army
    command CTASC in disbursed locations. The Commander also stated that
    U.S. Army Materiel Command is actively acquiring and locating 100 percent
    redundant hardware and software at the Software Engineering Center, Fort Lee,
    Virginia, which will be activated by January 1, 2007.

    2. We recommend that the Commander, 377th Theater Support Command
    establish disaster recovery measures that comply with Federal and DoD
    policy at the final locations of both the primary and back-up Standard Army
    Ammunition System-Modernized systems.

    Management Comments. The Commanding General of the U.S. Army 377th
    Theater Support Command concurred with comments to the recommendation.
    The Commanding General stated that the Command recognized and corrected the
    deficiencies prior to the audit. After Hurricane Katrina, the Command developed
    and tested a disaster recovery plan to ensure continuity of key operations. They
    added redundant data communications and trained staff on this process.
    Additionally, the Commanding General stated the Standard Army Ammunition
    System-Modernized was transferred to Belle Chasse on July 12, 2006, and the
    Command was in the process of modifying the disaster recovery plan to include
    the system at that location. The plan will include disaster recovery measures that
    comply with Federal and DoD policy at the final locations of both the primary
    and back-up Standard Army Ammunition System-Modernized systems. Finally,
    the Commanding General stated that the new plan will be completed on or before
    November 30, 2006.




                                         8
Appendix A. Scope and Methodology
    Scope and Methodology. We conducted this audit from February through July
    2006 in accordance with generally accepted government auditing standards. DoD
    facilities in Louisiana, Mississippi, Alabama, and Florida were damaged by
    Hurricane Katrina. We determined that Army logistics information technology
    resources were affected in Baton Rouge, Louisiana. We reviewed the information
    technology resources at the 321st Theater Materiel Management Center Rear,
    located at the Leonard C. Saurage U.S. Army Reserve Center. The 321st Theater
    Materiel Management Center Rear uses the CTASC system and the Standard
    Army Ammunition System-Modernized to execute its mission, and both systems
    suffered communications disruptions. We conducted field work and interviewed
    personnel at the Department of the Army, Deputy Chief of Staff, G-4 (Logistics);
    the Office of the Army Chief Information Officer (CIO/G-6); the U.S. Army
    Materiel Command; 377th Theater Support Command, located at the Naval Air
    Station, Joint Reserve Base, New Orleans, Louisiana; and the 321st Theater
    Materiel Management Center Rear, Baton Rouge, Louisiana. Additionally, we
    reviewed and analyzed disaster recovery plans and procedures in place before and
    after Hurricane Katrina to determine whether they complied with Federal and
    DoD disaster recovery planning regulations and instructions.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

     Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of the Protecting the Federal Government’s Information
    Systems and the Nation’s Critical Infrastructures high-risk areas.


Prior Coverage
    During the last 5 years, GAO has issued one report on continuity planning and
    emergency recovery efforts. Unrestricted GAO reports can be accessed over the
    Internet at http://www.gao.gov.

         GAO Report GAO-04-160, “Continuity of Operations: Improved Planning
         Needed to Ensure Delivery of Essential Government Services,” February
         27, 2004




                                       9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/ Chief
   Information Officer
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Commander, U.S. Army Materiel Command
Deputy Chief of Staff, G-4 (Logistics)
Army Chief Information Officer (CIO/G-6)
Commander, U.S. Army Reserve Command
Commander, 377th Theater Support Command
Commander, 321st Theater Materiel Management Center
Auditor General, Department of the Army

Combatant Command
Commander, U.S. Central Command

Other Defense Organizations
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Guard Bureau

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Office of Inspector General, Department of Homeland Security




                                          10
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                         11
12
U.S. Army Materiel Command Comments




                   13
14
U. S. Army 377th Theater Support Command
Comments
                                                Final Report
                                                 Reference




                                                *




* Omitted Enclosure 2 because of length.

                                           15
16
     Final Report
      Reference




     Revised
     Page 5




17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Jacqueline L. Wicecarver
Therese M. Kince
Susan R. Ryan
Matthew J. Price
Karma J. Cleveland
Jacqueline N. Pugh
Jillisa H. Milner
Meredith H. Johnson
